Eleventh Circuit’s decision below

United States v. Williams, 855 Fed.Appx. 635 (2021)

855 Fed.Appx. 635 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Michael Lee WILLIAMS, Defendant-Appellant.
No. 20-10038
|
Non-Argument Calendar
|
(May 17, 2021)
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 8:18-cr-00310-CEHSPF-1
Attorneys and Law Firms
Holly Lynn Gershow, Sean Siekkinen, Assistant U.S.
Attorney, U.S. Attorney Service - Middle District of Florida,
U.S. Attorney's Office, Tampa, FL, for Plaintiff-Appellee
Mara Allison Guagliardo, Nicole Valdes Hardin, Federal
Public Defender's Office, Tampa, FL, Rosemary Cakmis, Law
Office of Rosemary Cakmis, Orlando, FL, for DefendantAppellant
Before NEWSOM, BRANCH, and ANDERSON, Circuit
Judges.
Opinion

in applying the ACCA enhancement because his prior
Florida drug convictions did not qualify as “serious drug
offenses”; (3) the district court plainly erred by relying
on
Shepard-approved 1 documents to determine whether
the predicate offenses occurred on different occasions; and
(4) the government's failure to allege the existence of his
prior convictions in the indictment and prove them beyond
a reasonable doubt violated Williams's Fifth and Sixth
Amendment rights. After review, we affirm.
1

Shepard v. United States, 544 U.S. 13, 125 S.Ct.
1254, 161 L.Ed.2d 205 (2005).

I. Background
In 2018, a grand jury in the Middle District of Florida
indicted Williams on one count of possession of a firearm
§§ 922(g),
924(e).
by a convicted felon, in violation of
Williams pleaded guilty pursuant to a written plea agreement.
According to his presentence investigation report (“PSI”),
Williams qualified as an armed career criminal under the
ACCA based on the following prior Florida drug convictions,
which qualified as serious drug offenses for purposes of the
ACCA: (1) a 1999 conviction for sale/delivery of cocaine, in
violation of

Fla. Stat. § 893.13(1)(a); (2) a 2004 conviction

for sale/delivery of cocaine, in violation of
Fla. Stat. §
893.13(1)(a); and (3) a 2008 conviction for possession of
cocaine with intent to sell or deliver, in violation of
Fla.
Stat. § 893.13(1)(a). Attached to the PSI were official copies
of the state charging documents and judgments that had
been supplied by the government. Williams objected, arguing
in relevant part that none of his Florida drug convictions
qualified as serious drug offenses because the Florida statute
lacks a mens rea requirement. 2

PER CURIAM
Michael Williams pleaded guilty to possession of a firearm
and ammunition, in violation of
18 U.S.C. § 922(g),
and was sentenced under the Armed Career Criminal Act
(“ACCA”) to 120 months’ imprisonment. On appeal, he
argues that (1) the district court plainly erred in not finding
18 U.S.C. § 922(g) unconstitutional, both facially and
as applied, because the statute exceeds Congress's authority
under the Commerce Clause; (2) the district court erred

2

Williams's guideline range was 188 to 235 months’
imprisonment, with a statutory minimum term of
15 years’ imprisonment and a maximum term of
life imprisonment.

*636 Prior to sentencing, the government filed a motion for
a downward departure due to Williams's substantial assistance
to the government, pursuant to
U.S.S.G. § 5K1.1.
The government requested a two-level reduction because

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

1a

United States v. Williams, 855 Fed.Appx. 635 (2021)

Williams had provided truthful and timely information that
resulted in the identification and eventual conviction of
another defendant.

establish any connection between his possession of the
firearm and interstate commerce.
4

At the sentencing hearing, the district court overruled
Williams's objection to the ACCA enhancement and
concluded that all three of Williams's prior Florida drug
convictions qualified as serious drug offenses under this
Circuit's precedent. The district court granted the U.S.S.G.
§ 5K1.1 motion for a downward departure based on
substantial assistance and departed five levels (as opposed
to the two levels requested by the government) because
Williams and his family had received numerous threats as
a result of his cooperation, and the information he provided
was truthful and resulted in a conviction. The district court
then sentenced Williams to 120 months’ imprisonment to
be followed by 5 years’ supervised release. 3 This appeal
followed.
3

Because the government filed a
U.S.S.G. §
5K1.1 motion for a downward departure based
on substantial assistance, the district court was
authorized to depart from the 15-year mandatory
minimum term required under the ACCA. See
United States v. Simpson, 228 F.3d 1294, 1304
(11th Cir. 2000).

II. Discussion

1. Whether
18 U.S.C. § 922(g)(1) is unconstitutional
facially or as applied to Williams's case
Williams argues that his conviction should be vacated because
§ 922(g)(1) is unconstitutional, facially and as applied,
because it exceeds Congress's authority under the Commerce
Clause, 4 U.S. Const. art. I, § 8, cl. 3. He contends that the
Commerce Clause does not permit Congress to criminalize
the intrastate possession of a firearm and ammunition simply
because the items crossed state lines at some point in the
past, citing

United States v. Lopez, 514 U.S. 549, 115

S.Ct. 1624, 131 L.Ed.2d 626 (1995), and
United States v.
Morrison, 529 U.S. 598, 120 S.Ct. 1740, 146 L.Ed.2d 658
(2000). Further, he asserts that the statute is unconstitutional
as applied to his case because the government did not

Williams acknowledges that we have rejected
repeatedly similar constitutional challenges to §
922(g), but he seeks to preserve these arguments
for further review.

We generally review the constitutionality of a statute de novo
but where, as here, the issue is raised for the first time on
appeal, we review only for plain error. United States v. Wright,
607 F.3d 708, 715 (11th Cir. 2010). To prevail under plain
error review, a defendant “must show that the district court
made an error, that the error was plain, and that it affected
his substantial rights.” United States v. Iriele, 977 F.3d 1155,
1177 (11th Cir. 2020). If he makes that showing, we have
discretion to reverse the district court “only if the error
seriously affects the fairness, integrity, or public reputation of
judicial proceedings.” Id.
Section 922(g)(1) makes it unlawful for a convicted felon
“to ship or transport in interstate or foreign commerce, or
possess in or affecting commerce, any firearm or ammunition;
or to receive any firearm or ammunition which has been
shipped or transported in interstate or foreign commerce.”
18 U.S.C. § 922(g)(1). We have repeatedly rejected the
identical Commerce *637 Clause argument challenging the
facial constitutionality of

§ 922(g) that Williams makes

United States v. Johnson, 981 F.3d 1171, 1192
here. See
(11th Cir. 2020) (holding that Eleventh Circuit precedent
foreclosed the argument that the felon-in-possession statute
was unconstitutional, facially and as applied, under the
Commerce Clause); United States v. Jordan, 635 F.3d
1181, 1189 (11th Cir. 2011) (“We have repeatedly held
that
Section 922(g)(1) is not a facially unconstitutional
exercise of Congress's power under the Commerce Clause
because it contains an express jurisdictional requirement.”);
United States v. Scott, 263 F.3d 1270, 1271–74 (11th Cir.
2001) (holding that the Supreme Court decisions in

Lopez,

Jones v. United States, 529 U.S. 848, 120 S.Ct. 1904, 146
L.Ed.2d 902 (2000), and
Morrison had not modified or
overturned Eleventh Circuit precedent upholding the felonin-possession statute under Congress's Commerce Clause
Power).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

2a

United States v. Williams, 855 Fed.Appx. 635 (2021)

Similarly, we have also held that
§ 922(g)(1) is not
unconstitutional as applied to a defendant where there was
evidence that the firearm and ammunition were manufactured
outside of the state where the offense took place because
such evidence is sufficient to satisfy the minimal-nexus
requirement. Wright, 607 F.3d at 715–16 (holding that
§
922(g) was constitutional as applied because the “government
established that the firearms involved in Wright's offense
were manufactured outside of Florida, the state in which
the offense took place,” which meant that “the firearms
necessarily traveled in interstate commerce and therefore
satisfied the minimal nexus requirement”). The factual basis
included in Williams's plea agreement established that both
the firearm and the ammunition were manufactured outside
of Florida, the state in which the offense took place. Thus, the
minimal-nexus requirement was satisfied in this case. Id.
Accordingly, Williams's facial and as applied challenges
to the constitutionality of

§ 922(g) are foreclosed by

binding precedent.
United States v. Archer, 531 F.3d
1347, 1352 (11th Cir. 2008) (explaining that under the priorpanel-precedent rule, “a prior panel's holding is binding on
all subsequent panels unless and until it is overruled or
undermined to the point of abrogation by the Supreme Court
or by this Court sitting en banc”).

2. Whether Williams's prior Florida drug convictions
qualify as serious drug offenses for purposes of the ACCA
Williams argues that his post-2002 Florida drug convictions
do not qualify as serious drug offenses under the ACCA

The ACCA defines a “serious drug offense,” in relevant part,
as: “an offense under State law, involving manufacturing,
distributing, or possessing with intent to manufacture or
distribute, a controlled substance (as defined in section 102 of
the Controlled Substances Act ( 21 U.S.C. 802)), for which
a maximum term of imprisonment of ten years or more is
prescribed *638 by law.”

18 U.S.C. § 924(e)(2)(A)(ii).

As Williams correctly acknowledges, his claim is foreclosed
by binding precedent. See
Smith, 775 F.3d at 1267–68
(holding that drug crimes without an element of mens rea
could be serious drug offenses and that a prior conviction
under

§ 893.13 of the Florida Statutes was a serious drug

Smith,
offense for purposes of the ACCA). Following
the Supreme Court clarified that the ACCA's definition of
a serious drug offense “requires only that the state offense
involve the conduct specified in the federal statute; it does not
require that the state offense match certain generic offenses,”
and it affirmed the application of an ACCA enhancement
based on six prior convictions under

Fla. Stat. § 893.13(1)

(a). Shular v. United States, ––– U.S. ––––, 140 S. Ct. 779,
782, 787, 206 L.Ed.2d 81 (2020). In doing so, the Supreme
Court also noted that the petitioner “overstate[d] Florida's
disregard for mens rea ... under
Fla. Stat. § 893.13(1)
(a)” because “a defendant unaware of the substance's illicit
nature can raise that unawareness as an affirmative defense,
in which case the standard jury instructions require a finding
of knowledge beyond a reasonable doubt.”
Id. at 787;
see also United States v. Smith, 983 F.3d 1213, 1223 (11th
Cir. 2020) (holding post-

Shular that the argument that

because
Florida Statute § 893.13(1)(a) does not require
proof of a mens rea element. He acknowledges that this claim

convictions under
Fla. Stat. § 893.13(1)(a) do not qualify
as serious drug offenses because the state statute lacks a mens

is foreclosed our decision in
United States v. Smith, 775
F.3d 1262, 1268 (11th Cir. 2014), but he seeks to preserve this
issue for further review.

rea element “is foreclosed by our

We review de novo whether a conviction qualifies as a serious
drug offense under the ACCA. United States v. White, 837
F.3d 1225, 1228 (11th Cir. 2016). The ACCA mandates a
minimum 15-year sentence if a defendant convicted of being
a felon in possession of a firearm under 18 U.S.C. § 922(g)
has three or more prior convictions for a “violent felony”
and/or “a serious drug offense.”

the Supreme Court's decision in

Smith precedent and
Shular”). Consequently,

Williams is not entitled to relief on this claim.
F.3d at 1352.

Archer, 531

3. Whether the district court plainly erred in
determining that Williams's prior convictions
occurred on occasions different from one another

18 U.S.C. § 924(e)(1).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Williams, 855 Fed.Appx. 635 (2021)

Williams argues that the district court plainly erred by relying
on non-elemental facts to determine that his prior drug
offenses occurred on different occasions from one another
for purposes of the ACCA. He argues that the dates of the

that “a district court ‘ha[s] the authority to apply the
ACCA enhancement based on its own factual findings’
that the defendant's offenses were committed on occasions
different from one another” (alteration in original) (quotations

Fla. Stat. § 893.13(1)(a), and,

omitted)); Sneed, 600 F.3d at 1332–33 (holding that, when
making the different-occasions determination, the district

offense are not elements of

therefore, consistent with
Descamps v. United States, 570
U.S. 254, 133 S.Ct. 2276, 186 L.Ed.2d 438 (2013), and
Mathis v. United States, ––– U.S. ––––, 136 S. Ct. 2243,
195 L.Ed.2d 604 (2016), the district court could not have
relied upon the dates (i.e., non-elemental facts) alleged in the
state indictments to determine that the offenses occurred on
different occasions.
Because Williams failed to raise this argument in the district
court, we review only for plain error. See Wright, 607
F.3d at 715. A defendant who has at least three prior
qualifying predicate convictions for offenses “committed on
occasions different from one another” is subject to the ACCA.
18 U.S.C. § 924(e)(1). As explained previously, Williams
has three qualifying predicate convictions. Thus, the only
remaining question is whether the district court properly
determined that the offenses occurred on different occasions
from one another.
To qualify as offenses committed on different occasions
from one another under the ACCA, the offenses must be
“temporally distinct” and arise from “separate and distinct
United States v. Sneed, 600 F.3d
criminal episode[s].”
1326, 1329 (11th Cir. 2010) (quotation omitted). The
government bears the burden of proving by a preponderance
of the evidence that the prior convictions “more likely than
not arose out of ‘separate and distinct criminal episode[s].’ ”
United States v. McCloud, 818 F.3d 591, 595–96 (11th Cir.
2016) (alteration in original) (quoting
1329).

Sneed, 600 F.3d at

As long as the district court limits itself to
Shepardapproved sources, it “may determine *639 both the
existence of prior convictions and the factual nature of
those convictions, including whether they were committed
on different occasions,” “based on its own factual findings.”
United States v. Weeks, 711 F.3d 1255, 1259–60 (11th
Cir. 2013), abrogated on other grounds by
Descamps,
570 U.S. 254, 133 S.Ct. 2276; see also United States v.
Overstreet, 713 F.3d 627, 635–36 (11th Cir. 2013) (reiterating

court is limited to Shepard-approved sources). Shepard
approved documents include the “charging document, the
terms of a plea agreement or transcript of [plea] colloquy
between judge and defendant in which the factual basis for the
plea was confirmed by the defendant, or to some comparable
judicial record of this information.”
Shepard, 544 U.S. at
16, 26, 125 S.Ct. 1254. Furthermore, in determining whether
a defendant's prior convictions were committed on different
occasions from one another, a district court may rely on
“non-elemental facts” contained in the
Shepard-approved
sources. See United States v. Longoria, 874 F.3d 1278, 1282–
83 (11th Cir. 2017).
Here, the district court did not plainly err in determining
that Williams's prior offenses occurred on different occasions
from one another because the
Shepard-approved state
charging documents proffered by the government in the
district court proceeding confirmed that the offenses in
question occurred on different occasions from one another.
Specifically, the charging information for Williams's 1999
case for the sale/delivery of cocaine alleged that the
offense occurred “on or about” May 5, 1999. The charging
information in Williams's 2003 case for sale/delivery of
cocaine alleged that the offense occurred on November 6,
2002. And the charging information in Williams's 2007 case
for possession of cocaine with intent to sell alleged that the
offense occurred “on or about April 3, 2007.” Because the
Shepard-approved sources established that the offenses
occurred on different occasions from one another, the district
court did not plainly err in imposing the ACCA enhancement.
Longoria, 874 F.3d at 1282–83;

Archer, 531 F.3d at 1352.

Williams argues that Longoria was wrongly decided and that,
under
Descamps and
Mathis, the district court may
not consider non-elemental facts in conducting the differentoccasions inquiry. Williams's reliance on

Descamps and

Mathis is misplaced. Both
Descamps and
Mathis
concerned when a district court may apply the modified
categorical approach to ascertain whether a conviction

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

4a

United States v. Williams, 855 Fed.Appx. 635 (2021)

qualifies as an ACCA violent felony predicate—an inquiry
Mathis, 136 S. Ct. at 2253;

not at issue in this case.

Descamps, 570 U.S. at 257–58, 133 S.Ct. 2276. Neither
case addressed the second inquiry required by the ACCA—
whether the qualifying predicate offenses were committed
on different occasions from one another. See generally
Mathis, 136 S. Ct. at 2253;
58, 133 S.Ct. 2276. Therefore,
have no bearing on this case.
5

To

the

extent

Descamps, 570 U.S. at 257–
Descamps and

Mathis

5

that

Williams

argues

that

Descamps and
Mathis abrogated our
precedent regarding the different-occasions
inquiry, his argument is unavailing. In order to
conclude that we are not bound by a prior holding
in light of a Supreme Court case, we must find that
the case is “clearly on point” and that it “actually
abrogate[s] or directly conflict[s] with, as opposed
to merely weaken[s], the holding of the prior
panel.”

United States v. Kaley, 579 F.3d 1246,

1255 (11th Cir. 2009). Neither

Descamps nor

Mathis is clearly on point as neither case deals
with the different-occasions inquiry. See generally
Mathis, 136 S. Ct. at 2253;
Descamps, 570
U.S. at 257–58, 133 S.Ct. 2276. Accordingly,
neither case abrogated our prior precedent on the
different-occasions inquiry for purposes of the
ACCA.

Kaley, 579 F.3d at 1255.

*640 4. Whether the government's failure to indict
and prove beyond a reasonable doubt that Williams
had three prior convictions for a serious drug offense
that were committed on different occasions from
one another violates the Fifth and Sixth Amendment
Williams argues that the ACCA enhancement violates his
Fifth and Sixth Amendment rights because the government
did not charge in the indictment and prove beyond a
reasonable doubt that he had three prior convictions that
qualified as serious drug offenses and that were committed
on different occasions from one another. Because Williams
failed to make this argument below, we review this claim only
for plain error. Wright, 607 F.3d at 715.

In
Almendarez–Torres v. United States, the Supreme
Court held that, for sentencing enhancement purposes, a
judge, rather than a jury, may determine “the fact of an
earlier conviction.”

523 U.S. 224, 226–27, 118 S.Ct.

Apprendi
1219, 140 L.Ed.2d 350 (1998). Thereafter, in
v. New Jersey, the Supreme Court held that, under the Due
Process Clause of the Fifth Amendment and the notice and
jury trial guarantees of the Sixth Amendment, “[o]ther than
the fact of a prior conviction, any fact that increases the
penalty for a crime beyond the prescribed statutory maximum
must be submitted to a jury, and proved beyond a reasonable
530 U.S. 466, 490, 120 S.Ct. 2348, 147 L.Ed.2d
doubt.”
435 (2000). Nevertheless, as is evident from the language
of

Apprendi’s holding,

existing rule from
in

Apprendi did not alter the pre-

Almendarez–Torres. Subsequently,

Alleyne v. United States, the Supreme Court extended

Apprendi and held that any facts that increase a mandatory
minimum sentence must be submitted to a jury and proved
beyond a reasonable doubt.
570 U.S. 99, 116, 133 S.Ct.
2151, 186 L.Ed.2d 314 (2013). But in so holding, the Supreme
Court expressly declined to alter the
Torres rule.

Almendarez–

Id. at 111 n.1, 133 S.Ct. 2151 (“Because the

parties do not contest [the] vitality [of
AlmendarezTorres], we do not revisit it for purposes of our decision
today.”). Thus,
exception to

Almendarez–Torres remains a narrow
Apprendi’s general rule for the fact of a prior

conviction, and “we are bound to follow
AlmendarezTorres unless and until the Supreme Court itself overrules that
decision.”

Smith, 775 F.3d at 1266 (quotation omitted).

Accordingly, we have rejected repeatedly the Fifth and Sixth
Amendment challenge advanced by Williams. The law is
clear that a defendant's prior convictions do not have to be
alleged in the indictment nor proven to the trier of fact beyond
a reasonable doubt. See, e.g., United States v. Deshazior,
882 F.3d 1352, 1358 (11th Cir. 2018) (rejecting argument
that ACCA-enhanced sentence was unconstitutional because
the defendant's prior convictions were not alleged in the
indictment nor proved beyond a reasonable doubt);
Smith,
775 F.3d at 1266 (“Neither the Fifth Amendment nor the Sixth
Amendment prevents the district court from finding the fact of
[the defendant]’s prior convictions, or using them to designate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

United States v. Williams, 855 Fed.Appx. 635 (2021)

him an Armed Career Criminal.... The Constitution does not
require that the government allege in its indictment and prove
beyond a reasonable doubt that [the defendant] had prior
convictions for a district court to use *641 those convictions
for purposes of enhancing a sentence.” (alterations adopted));
Weeks, 711 F.3d at 1259 (“[W]e have consistently held
Almendarez–Torres remains good law, and ... [w]e
that
have also expressly rejected the notion that the ACCA's
different-occasions determination ... must be submitted to a
jury and proven beyond a reasonable doubt.”). Accordingly,
Williams's claim is foreclosed by binding precedent and
he cannot show plain error.

III. Conclusion
For the above reasons, we affirm Williams's conviction and
sentence.
AFFIRMED.
All Citations
855 Fed.Appx. 635 (Mem)

Smith, 775 F.3d at 1266;

Archer, 531 F.3d at 1352.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

6a

